Report No. D-2009-092         July 15, 2009




   Validity of DOD Civilian Employee Accounts
Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
CPMS                          Civilian Personnel Management Service
DCPDS                         Defense Civilian Personnel Data System
DCPS                          Defense Civilian Pay System
DFAS                          Defense Finance and Accounting Service
SSA                           Social Security Administration
SSN                           Social Security Number
                                !NSP           GENERAL
                                DEPARTMENT OF DEFENSE
                                  400 ARMY NAVY DRiVE
                             ARLINGTON, VIRGINIA 22202-4704




                                                                             July 15, 2009

MEMORANDUM FOR DIRECTOR, DEFENSE FINANCE AND ACCOUNTING
                 SERVICE

SUBJECT: Validity of DoD Civilian Employee Accounts
         (Report No. D-2009-092)


Weare providing this report for your information and use. We considered management
comments from the Defense Finance and Accounting Service when preparing the final
report.

Comments on the draft of this report conformed to the requirements of DoD Directive
7650.3 and left no unresolved issues. Therefore, we do not require any additional
comments.

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 601-5868.




                                             Patricia A. Marsh, CPA
                                             Assistant Inspector General
                                             Defense Business Operations
Report No. D-2009-092 (Project No. D2008-D000FC-0156.000)                    July 15, 2009


              Results in Brief: Validity of DoD Civilian
              Employee Accounts



What We Did                                           What We Recommend
Our audit objective was to determine whether          We recommend that the Director, DFAS:
the Defense Finance and Accounting Service
(DFAS) made payments to valid DoD civilian                  Review all accounts identified in this
employee accounts. See Appendix A for a                      report and take appropriate corrective
discussion of the scope and methodology related              action to recover improper payments
to the objective.                                            made to invalid DoD civilian employee
                                                             accounts;
What We Found
As of May 2008, the Defense Civilian Pay                    Establish policies and procedures to
System (DCPS) included 7.3 million DoD                       validate Social Security numbers for
civilian employee accounts with more than $148               DoD civilian employee accounts;
billion in taxable earnings during the period
January 2002 through April 2008 (excluding                  Revise the DFAS Civilian Pay standard
taxable earnings for calendar year 2007).                    operating procedure, “Death in Service,”
However, DFAS did not ensure that DCPS                       to include identifying deceased
contained only valid DoD civilian employee                   employees and recovering improper
accounts. Specifically, DCPS included invalid                payments;
Social Security numbers, employees under the
legal employment age, and multiple employee                 Establish policies and procedures to
accounts that shared the same bank account. As               validate employees under the legal
a result, DFAS may have paid approximately                   employment age; and
$15.4 million to more than 2,300 invalid DoD
civilian employee accounts from January 2002                Establish policies and procedures to
through April 2008 (excluding 2007). By                      validate multiple employees who share
reviewing the DoD civilian employee accounts                 the same bank account.
identified and ensuring the accuracy of future
accounts, DFAS will reduce the likelihood of          Management Comments and
paying invalid DoD civilian employees.                Our Responses
DFAS internal controls were not adequate. We          The Director, Standards and Compliance,
identified internal control weaknesses in the         agreed with five recommendations in the report.
administration of DoD civilian employee               The comments were responsive to five
accounts. See the finding section for further         recommendations. Please see the
details on the internal control weaknesses.           recommendations table on the back of this page.




                                                  i
Report No. D-2009-092 (Project No. D2008-D000FC-0156.000)           July 15, 2009

Recommendations Table
Management                      Recommendations             No Additional Comments
                                Requiring Comment           Required
Director, Defense Finance and                               1, 2, 3, 4, and 5
Accounting Service




                                          ii
Table of Contents

Results in Brief                                                 i

Introduction                                                     1

       Objective                                                1
       Background                                               1
       Review of Internal Controls                              2

Finding. Validity of DoD Civilian Employee Accounts              3

       Recommendations, Management Comments, and Our Response    8

Appendix. Scope and Methodology                                 10

       Prior Coverage                                           11

Management Comments

       Defense Finance and Accounting Service                   12
Introduction
Objective
Our audit objective was to determine whether the Defense Finance and Accounting
Service (DFAS) made payments to valid DoD civilian employee accounts. See
Appendix A for a discussion of the scope and methodology related to the objective.

Background
When a DoD agency hires a new civilian employee, the human resource office gathers
personal and position-related information and forwards it to the hiring agency’s customer
service representative. The customer service representative creates an employee account
within the Defense Civilian Personnel Data System (DCPDS) using the new civilian
employee’s Social Security number (SSN). DCPDS is a human resource information
system maintained by the Civilian Personnel Management Service (CPMS) that supports
DoD civilian personnel operations. DCPDS retains employee names, birth dates, and
job-related information and electronically transfers personal and position-related
information to DFAS Civilian Pay for payment processing. DCPDS maintained
approximately 800,000 DoD civilian employee accounts during FY 2007.

DFAS Civilian Pay
DFAS Civilian Pay is responsible for ensuring that DoD civilian payroll is processed
accurately and in a timely manner. Initially, DFAS processed DoD civilian payroll at
three offices located in Charleston, South Carolina; Denver, Colorado; and Pensacola,
Florida. From March 2007 through March 2008, the civilian payroll offices were
consolidated and transferred to Cleveland, Ohio and Indianapolis, Indiana. DFAS
Civilian Pay also processes payroll for the Executive Office of the President, the
Department of Energy, the Department of Health and Human Services, and the
Department of Veterans Affairs.

Civilian Payroll Processing
DFAS Civilian Pay uses the Defense Civilian Pay System (DCPS) to process biweekly
payroll. DCPS maintains pay entitlements, leave entitlements, deductions and
withholdings, time and attendance, and other employee account information. DCPS
normally includes only one pay account for each employee and identifies it by their SSN.
For employees to receive pay, their agency timekeeper must first enter biweekly
time-and-attendance data within DCPS. Once the agency timekeeper enters time and
attendance, DCPS begins a series of automated reviews. These reviews validate time and
attendance, update the master leave history, calculate pay, and produce exception reports
identifying potential errors. DFAS Civilian Pay must resolve errors identified during
these reviews prior to payroll approval. Once DFAS resolves all errors, DCPS
electronically transfers the payroll information to DFAS Disbursing Operations.




                                            1
Disbursements to DoD Civilian Employees
DFAS Disbursing Operations at Cleveland, Ohio disburses payroll to all DoD civilian
employees using the Automated Disbursing System. The Automated Disbursing System
disburses the majority of payroll by electronic funds transfer. However, some DoD
civilian employees still receive paper checks from the Automated Disbursing System.
These civilian employees obtained waivers for physical, mental, or financial hardship to
receive paper checks.

Review of Internal Controls
We identified internal control weaknesses as they relate to the audit objective. DFAS
Civilian Pay policies and procedures were not adequate to identify invalid DoD civilian
employee accounts within DCPS. Specifically, DFAS Civilian Pay did not ensure that
DCPS contained only valid DoD civilian employee accounts. Implementing
recommendations 1, 2, 3, 4, and 5 will strengthen policies and procedures to ensure that
DCPS includes valid DoD civilian employee accounts and to reduce the likelihood of
improper payments. We will provide a copy of the final report to the senior official
responsible for internal controls in DFAS.




                                            2
Finding. Validity of DoD Civilian Employee
Accounts
As of May 2008, DCPS included 7.3 million DoD civilian employee accounts with more
than $148 billion in taxable earnings during the period January 2002 through April 2008
(excluding taxable earnings for calendar year 2007). 1 However, DFAS did not ensure
that DCPS contained only valid DoD civilian employee accounts. Specifically, DCPS
included invalid SSNs, employees under the legal employment age, and multiple
employee accounts that shared the same bank account. DFAS Civilian Pay policies and
procedures were not adequate to identify invalid DoD civilian employee accounts within
DCPS. As a result, DFAS may have improperly paid approximately $15.4 million to
more than 2,300 invalid DoD civilian employee accounts from January 2002 through
April 2008 (excluding 2007). By reviewing the DoD civilian employee accounts
identified and ensuring the accuracy of future accounts, DFAS will reduce the likelihood
of paying invalid DoD civilian employees.

Criteria for the Validity of DoD Civilian Employee Accounts
The Fair Labor Standards Act, section 213, title 29, United States Code, established the
minimum legal employment age. The act identifies 14 as the minimum age for most
nonagricultural workers. It also states that an employee under the age of 14 is limited to
working as a newspaper deliverer, babysitter, actor, or for their family-owned business or
farm.

DoD Financial Management Regulation 7000.14-R, volume 8, chapter 1, “Introduction
and Overall Requirements,” July 2008, 2 requires DFAS to ensure that entitled individuals
are paid accurately and promptly. It also requires that inappropriate data detected be
investigated promptly and appropriate action taken to correct discrepancies.

Validity of DoD Civilian Employee SSNs
DCPS contained invalid SSNs because DFAS Civilian Pay did not have policies and
procedures to validate SSNs. Specifically, from January 2002 through April 2008
(excluding 2007), DCPS contained 101 SSNs with earnings of approximately $297,000
that were invalid, according to the Social Security Administration (SSA). SSA outlines
the structure of the SSN and the sequence in which SSNs are issued. The SSN has nine
digits, with hyphens as separators before the fourth and sixth digits. The first three digits
are called the area number and are assigned by State. The next two digits are called the
group number and are assigned for administrative purposes. The final four digits are
called the serial number and are issued sequentially. SSA guidelines state that none of

1
  DFAS Civilian Pay was unable to provide taxable earnings from DCPS for calendar year 2007. DFAS
personnel stated that they were transferring 2007 data to the DCPS Data Repository when we requested the
audit universe, which prevented DFAS Civilian Pay from extracting taxable earnings for 2007.
2
  We did not identify any differences between the DoD Financial Management Regulation in effect when
the DoD civilian employees were originally paid and the current DoD Financial Management Regulation
that would affect the results of the review.


                                                   3
the three individual numbers of the SSN can be entirely comprised of zeros. For
example, a SSN of 123-00-1234 is invalid because the group number contains all zeros.
DCPS included three SSNs that included zeros in one of the three individual numbers.
The audit team contacted DFAS Civilian Pay to validate the SSNs. A DFAS Civilian Pay
representative stated that they rely on the employing agency and that we should request
the supporting documentation from CPMS. As a result, the audit team asked CPMS to
provide supporting documentation for the three invalid SSNs. After four weeks, CPMS
had not provided any supporting documentation.

DCPS also contained 98 SSNs that SSA had not issued. SSA guidelines specify the
maximum values that have been used to create area and group number combinations as a
way to help employers verify new employees’ SSNs. According to SSA, any SSNs that
exceed these guidelines are invalid. When the audit team asked DFAS Civilian Pay to
validate some of the SSNs, a DFAS Civilian Pay representative stated that they rely on
the employing agency to validate SSNs and that we should request supporting
documentation from CPMS. As a result, the audit team asked CPMS to provide
supporting documentation for 19 of the 98 invalid SSNs. After four weeks, CPMS
provided supporting documentation for 5 invalid SSNs that indicated data entry errors,
but CPMS did not provide documentation for the remaining 14 invalid SSNs.

Even though CPMS provided us with some documentation, DFAS Civilian Pay is
responsible for ensuring that SSNs contained in DCPS are accurate, because accurate
SSNs are critical to ensuring that entitled employees receive pay. A correct SSN is also
important because it allows SSA to properly credit the employee’s earnings record.
DFAS Civilian Pay can validate future SSNs by using the SSN Verification Service
provided by SSA. This free service allows users to compare names and SSNs of
employees with SSA records. DFAS Civilian Pay should review the invalid SSNs and
establish polices and procedures to validate future SSNs.

Deceased Employee SSNs
DCPS contained 134 SSNs with earnings of more than $905,000 for deceased employees
from January 2002 through April 2008 (excluding 2007). The DFAS Civilian Pay
standard operating procedure, “Death in Service,” did not include procedures to identify
deceased employees and recover improper payments. This guidance focused only on
identifying and calculating compensation payable to the beneficiary. As a result, DCPS
contained 134 SSNs for deceased employees that DFAS continued to pay for more than
three pay periods after they died. For example, one employee had a reported date of
death of March 1948 and still received $11,613 in 2002. The audit team compared the
134 SSNs to the Social Security Death Index Web site to verify that the employees were
deceased. Using the interactive search, we matched 44 employees to the Social Security
Death Index, indicating that the employees were deceased. These 44 deceased civilian
employees were erroneously paid a total of more than $312,379 after they died. We also
identified 86 deceased employees whose names in DCPS did not match their names in the
Social Security Death Index. These instances demonstrate the potential for fraud,
because employees may submit the SSN of a deceased individual instead of their own.



                                            4
The audit team was unable to verify the deaths of four of the employees reported as
deceased.

The audit team contacted DFAS Civilian Pay to validate some of the deceased
employees. A DFAS Civilian Pay representative stated that they rely on the employing
agency to do this and that we should request supporting documentation from CPMS. As
a result, the audit team asked CPMS to provide supporting documentation for 20 of 134
deceased employees. After four weeks, CPMS provided supporting documentation for
11 of these 20 deceased employees. CPMS provided supporting documentation for 6 of
the 11 deceased employees whose records indicated data entry errors. For the other five
deceased employees, supporting documentation indicated that the employee was
deceased. CPMS did not provide documentation for 9 of the 20 deceased employees.

Although CPMS was able to provide us with some documentation, DFAS Civilian Pay is
responsible for ensuring that only entitled employees receive pay. DFAS Civilian Pay
did not attempt to identify deceased employees and recover improper payments.
However, DFAS has the ability to identify deceased employees through the Defense
Manpower Data Center, which it currently utilizes in DFAS Retired and Annuitant Pay to
identify deceased retired military members. The Defense Manpower Data Center
compares the SSA Death Master File with employee accounts and reports the matches to
DFAS. The SSA Death Master File is an extensive database containing information on
deceased individuals who were issued SSNs. The Defense Manpower Data Center could
also assist DFAS Civilian Pay in identifying deceased civilian employees. DFAS
Civilian Pay should review and recover improper payments made to deceased civilian
employees. Additionally, DFAS Civilian Pay should revise its policies and procedures to
include identifying deceased employees and recovering improper payments.

DoD Civilian Employee Ages
DCPS showed employees that were under the legal employment age because DFAS
Civilian Pay did not have policies and procedures in place to validate employee birth
dates. Specifically, from January 2002 through April 2008 (excluding 2007) DCPS
contained 1,921 accounts with earnings of approximately $2.3 million for employees that
were under the legal employment age of 14. In 2006, one employee had a birth date of
April 1998 and received payments totaling $12,236. The audit team contacted DFAS
Civilian Pay to validate some of the birth dates. A DFAS Civilian Pay representative
stated that they rely on the employing agency to do this and that we should request the
supporting documentation from CPMS. The audit team asked CPMS to provide
supporting documentation for 7 of 1,921 accounts with ages under the legal limit. After
three weeks, CPMS did not provide any supporting documentation but stated that the
birth dates included in DCPDS were accurate. The audit team compared the birth dates
in DCPS to DCPDS and identified that 1,916 of 1,921 accounts for employees were still
under the legal employment age of 14. By law, these employees were not entitled to
receive payments. Additionally, we identified five accounts that were the result of
potential data entry errors.




                                            5
DFAS Civilian Pay did not have policies and procedures in place to validate employee
birth dates, although DCPS identifies employees under the legal employment age. When
a DCPS account is established, DCPS compares the birth date against the current date
and creates a warning message identifying employees under the legal employment age.
DFAS Civilian Pay representatives ignored these warning messages and still processed
employees’ pay, allowing DCPS to include employees under the legal employment age of
14. A DFAS Civilian Pay representative stated that DFAS Civilian Pay should contact
the Human Resource Office to verify the birth dates. However, DFAS Civilian Pay
standard operating procedures do not require such verification. It is DFAS Civilian Pay’s
responsibility to ensure that entitled employees receive accurate and prompt payments.
The accuracy of birth dates is critical to ensuring that employees are of legal employment
age, and DFAS Civilian Pay should ensure that birth dates contained within DCPS are
accurate. DFAS Civilian Pay should review current employees under the legal
employment age of 14 and establish policies and procedures to validate employees under
the legal employment age.

Employees with the Same Bank Account
DCPS contained multiple employee accounts that shared the same bank account.
Specifically, from January 2002 through April 2008 (excluding 2007), DCPS contained
186 employee accounts that received earnings of approximately $11.9 million into 16
different bank accounts. DFAS Civilian Pay could not identify these employees because
it did not have policies and procedures in place to identify multiple employees sending
payments to the same bank account. Each employee’s net pay is assigned to one bank
account type, account number, and routing number within DCPS. Couples employed by
DoD agencies commonly share the same banking information for receiving their net pay.
However, DCPS showed 16 different bank accounts to which at least three DoD civilian
employees were sending payroll deposits. For example, DCPS contained 52 different
employee accounts that had received earnings of more than $3.4 million into the same
bank account. The audit team asked DFAS Civilian Pay to provide supporting
documentation for the 186 employee accounts. After three weeks, DFAS Civilian Pay
had not provided any supporting documentation for these accounts. DFAS Civilian Pay
should review the accounts with multiple employees depositing to the same bank account
and establish policies and procedures to validate them.

Conclusion
DFAS may have improperly paid approximately $15.4 million to more than 2,300 invalid
DoD civilian employee accounts from January 2002 through April 2008 (excluding
2007). Payments made to ineligible recipients are considered improper payments.
Invalid employee accounts in DCPS increase the likelihood of improper payments.
DFAS Civilian Pay must ensure that DoD civilian employee accounts are accurate,
because accurate account information is critical to ensuring that only entitled employees
receive pay. DFAS is also required to promptly investigate inappropriate employee
accounts and take appropriate action to correct discrepancies. However, DFAS Civilian
Pay did not take appropriate action to ensure that DoD civilian employee accounts were
correct.



                                            6
We requested that the Defense Criminal Investigative Service review the invalid DoD
civilian employee accounts identified within this report. The Defense Criminal
Investigative Service, with assistance from DFAS Internal Review, Columbus, Ohio,
agreed to review invalid SSNs and accounts with multiple employees depositing to the
same bank account.

Management Comments on the Finding and Our
Response
Defense Finance and Accounting Service Comments
The Director, Standards and Compliance, suggested that we should include the scope of
payments and define the deficiency percentages within the Results in Brief and Finding
sections. He referred to our Appendix, which stated that there were a combined 7.3
million accounts paid during the period in question for more than $148 billion and noted
that the potential error amounted to 0.03 percent of the accounts and 0.01 percent of the
dollars. The Director, Standards and Compliance, also stated that we should discuss the
sample of accounts reviewed and remarked that DFAS had worked with CPMS to verify
the findings for 50 accounts in each of the four areas. (Specifically, DFAS reviewed 20
accounts with invalid social security numbers, 20 accounts of deceased employees, and
10 accounts of employees under the legal employment age.) According to the Director,
Standards and Compliance, for all accounts that are in an online production environment,
DFAS found that the civilian payments included some form of coding error, but the
payments were proper and made to an authorized recipient. After acknowledging that the
audit objective was “to determine whether the DFAS made payments to valid DoD
civilian employee accounts,” the Director, Standards and Compliance, also stated that we
should make a recommendation regarding CPMS, which provides the source data and it
is critical to implementing effective corrective actions. He stated that there has to be a
certain reliance placed on the provider of the information. DFAS is working with CPMS
to research and implement corrective actions for this report.

Our Response
Based on comments from the Director, Standards and Compliance, we added that DCPS
included 7.3 million DoD civilian employee accounts with more than $148 billion in
taxable earnings during the period January 2002 through April 2008 (excluding taxable
earnings for calendar year 2007) to the Results in Brief and Finding sections. However,
we did not include deficiency percentages because the percentages do not consider the
actual number of DoD civilian employee accounts that received pay. Only a portion of
the 7.3 million DoD civilian employee accounts in DCPS received pay during January
2002 through April 2008 (excluding 2007). DFAS deficiency percentages assume that all
7.3 million DoD civilian employee accounts received pay during the time period
reviewed by the audit team. We also are unable to address the sample of accounts
reviewed because DFAS did not provide any documentation supporting its account
analysis and conclusions. DFAS is also still researching 17 of 50 (34 percent) accounts
reviewed because it has limited or no information in its online production environment.
Additionally, DFAS has not initiated a review of multiple employee accounts that shared



                                            7
the same bank account, which represents $11.9 million of the $15.4 million identified
during the audit. We recognize and support DFAS working with CPMS to research and
implement corrective actions for this report. However, DFAS is ultimately responsible
for ensuring that only entitled employees receive pay. It also needs to ensure that DCPS
includes accurate DoD civilian employee account information, because accurate account
information is critical to ensuring that only entitled employees receive pay.

Recommendations, Management Comments, and Our
Response
We recommend that the Director, Defense Finance and Accounting Service:

1. Review all accounts identified in this report and take appropriate corrective
action to recover improper payments made to invalid DoD civilian employee
accounts.

Defense Finance and Accounting Service Comments
The Director, Standards and Compliance, agreed and stated that all accounts identified in
the report are being reviewed to determine whether any improper payments have been
made and to take appropriate corrective action. Corrective action will be completed by
October 1, 2009.

2. Establish policies and procedures to validate Social Security numbers for DoD
civilian employee accounts.

Defense Finance and Accounting Service Comments
The Director, Standards and Compliance, agreed and stated that a system change request
was submitted on April 23, 2009, to ensure that SSNs within the DCPS met SSA
guidelines. The DFAS Civilian Pay Standards and Compliance team will also work with
CPMS to determine the most efficient method to validate SSNs and provide an estimated
implementation date of new policies and procedures. Corrective action will be completed
by October 1, 2009.

3. Revise the Defense Finance and Accounting Service Civilian Pay standard
operating procedure, “Death in Service,” to include identifying deceased employees
and recovering improper payments.

Defense Finance and Accounting Service Comments
The Director, Standards and Compliance, agreed and stated that the DFAS Civilian Pay
Standards and Compliance team will review the “Death in Service” standard operating
procedure and make revisions as necessary. The Director, Standards and Compliance
also stated that the team will work with CPMS to review current procedures for potential
improvements and provide an estimated implementation date of new policies and
procedures. Corrective action will be completed by October 1, 2009.




                                            8
4. Establish policies and procedures to validate employees under the legal
employment age.

Defense Finance and Accounting Service Comments
The Director, Standards and Compliance, agreed and stated that CPMS confirmed that
edits were added to DCPDS in January 2009 to eliminate invalid birthdates within
personnel records. The Director, Standards and Compliance, also stated that any
erroneous modifications within DCPS would be corrected based on Personnel/Payroll
reconciliation between the two systems. Corrective action was completed on
April 14, 2009.

5. Establish policies and procedures to validate multiple employees who share the
same bank account.

Defense Finance and Accounting Service Comments
The Director, Standards and Compliance, agreed and stated that DFAS will look at
possible options to identify and review multiple employees sharing the same bank
account. The Director, Standards and Compliance also stated that it is common for
members of the same household to share a bank account for their net pay, and not all
banks establish unique account numbers for all of their customers; therefore, a
reasonability edit will be looked at when establishing review and validation procedures.
Corrective action will be completed by October 1, 2009.

Our Response
Comments from the Director, Standards and Compliance, are responsive and conform to
requirements. No additional comments are needed.




                                            9
Appendix. Scope and Methodology
We conducted this performance audit from March 2008 through March 2009 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

To review the validity of DoD civilian employee accounts, we evaluated the DoD civilian
payment process and reviewed data contained within multiple Defense agency databases.
As of May 2008, DCPS included 7.3 million DoD civilian employee accounts with more
than $148 billion in taxable earnings during the period January 2002 through April 2008
(excluding taxable earnings for calendar year 2007). Using Audit Command Language,
we identified a subuniverse of 2,342 invalid accounts. We identified invalid accounts
within the audit universe by applying data queries related to SSNs, birth dates, and
employees with the same bank accounts. We requested documentation for 235 invalid
accounts (for a total of approximately $12.8 million) from the subuniverse to determine
the reason that DCPS included invalid accounts. We contacted representatives from the
Office of the Under Secretary of Defense (Comptroller)/DoD Chief Financial Officer; the
Office of the Under Secretary of Defense for Personnel and Readiness; DFAS Civilian
Pay; DFAS Disbursing Operations; and CPMS.

To accomplish the audit objective, we performed the following tasks.

      We met with representatives from DFAS Pensacola, Florida, to gain an overall
       understanding of the DoD civilian payment process and obtain the universe of
       DoD civilian employee accounts. Specifically, we reviewed roles and
       responsibilities of system personnel and some system and access controls.
       Additionally, we reviewed justifications for the requested documentation.

      We met with representatives from DFAS Civilian Pay, Cleveland, Ohio, and
       Indianapolis, Indiana, to determine the payroll process for DoD civilian employee
       accounts. Specifically, we reviewed payroll processes, roles and responsibilities
       of payroll personnel, payroll standard operating procedures, and some
       DCPS-generated reports. Additionally, we reviewed justifications for the
       requested documentation.

      We met with representatives from the DFAS Disbursing Operations, Cleveland,
       Ohio, to determine the disbursement process for DoD civilian payments and to
       obtain Automated Disbursing System and manual check payments for comparison
       against DCPS data. Specifically, we reviewed the civilian payment process, roles
       and responsibilities of disbursing personnel, disbursement standard operating
       procedures, and some system and access controls. Additionally, we reviewed
       disbursement documentation.



                                           10
      We met with representatives from CPMS to gain an understanding of the
       personnel process and to obtain DCPDS data for comparison against DCPS data.
       Specifically, we reviewed the personnel process, roles and responsibilities of
       CPMS personnel, and some system and access controls. Additionally, we
       reviewed personnel file documentation provided by CPMS.

Use of Computer-Processed Data
To perform this audit, we used data that originated in DCPS. DCPS is the official
civilian payroll system for DoD. Each year, DoD Office of Inspector General auditors
assess DCPS controls. We determined data reliability by comparing DoD civilian
employee account data to DCPDS, the Automated Disbursing System, and personnel file
documentation. These assessments indicated that the data was sufficiently reliable to
accurately reflect the payments for the purpose of our review.

Use of Technical Assistance
Quantitative Methods and Analysis Division personnel in the DoD Office of Inspector
General assisted with obtaining data from DCPS, DCPDS, and the Automated Disbursing
System. They uploaded data into the Audit Command Language and ran queries to assist
in identifying a subuniverse of potentially invalid accounts. They also coordinated with
the Defense Manpower Data Center to obtain SSA Death Master File information for the
audit universe. They also assisted with identifying SSNs that were never issued by SSA.

Prior Coverage
No prior coverage has been conducted on determining the validity of DoD civilian
employee accounts during the last 5 years.




                                          11
Defense Finance and Accounting Service Comments


                                                    Final Report
                                                     Reference




                  Click to add JPEG file




                                                  Added Pages
                                                  i and 3




                                 12
Click to add JPEG file




               13
Click to add JPEG file




               14
Click to add JPEG file




               15
Click to add JPEG file




               16
